Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

March 31, 2021

Chief Justice

161889

STATE TREASURER,
Plaintiff-Appellee,

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,
Justices

SC: 161889
roAChippewa CC: 18-015292-CZ

v
ROBERT L. HENNING,
Defendant-Appellant,
and
AMERIPRISE FINANCIAL SERVICES, INC.
and DAWN GIBBONS, Power of Attorney,
Defendants.

On order of the Court, the application for leave to appeal the July 23, 2020 order of
the Court of Appeals is considered, and it is DENIED, because we are not persuaded that
the questions presented should be reviewed by this Court.

i*i
'£J

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
March 31,2021

a0324

Court of Appeals, State of Michigan
ORDER
State Treasurer v Robert L Henning

Michael F. Gadola
Presiding Judge

Docket No.

352130

Stephen L. Borrello

LC No.

18-015292-CZ

Michael J. Kelly
Judges

The motion to strike the answer to the delayed application for leave to appeal is DENIED.
The delayed application for leave to appeal is DENIED because defendant has failed to
establish that the trial court erred in denying the motion for relief from judgment.

Presiding Judge

A true copy entered and certified by Jerome \V. Zimmer Jr.. Chief Clerk, on

July 23, 2020
y o

Date

AVP^^Xx E
XI

